 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL



The Interstate Compact on the Placement
               of Children

        State Structure and Process




                     JUNE GIBBS BROWN
                      Inspector General

                       NOVEMBER 1998
                        OEI-02-95-00041
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Nancy Harrison, Project Leader                          Alan Levine, Program Specialist

Miriam Gareau

Daniel Ginsberg

Judy Lin





      To obtain copies of this report, please call the New York Regional Office at (212) 264-1998.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection is to describe how States have implemented the Interstate
Compact on the Placement of Children and to report on the number of children who are
affected by the Compact.

BACKGROUND

The Administration for Children and Families (ACF) has asked the Inspector General (OIG) to
look at a number of issues regarding interstate compacts. Currently, the ACF is interested in
how the Interstate Compact on the Placement of Children (the Compact) is implemented by
States, and the Compact’s strengths and weaknesses. This inspection addresses how States
have structured their Compact function. The Compact’s strengths and weaknesses will be
explored in a subsequent inspection.

Sometimes the most suitable placement for a child is out of their own State. The reasons for
such placements include adoptions by a family in another State, placement into foster care out
of State, and reunification with a parent who has moved while the child was in State custody.

The Interstate Compact on the Placement of Children is a contract among the States intended
to ensure that children placed across States lines receive adequate protection and services. The
Compact outlines the steps necessary to place a child out of State. For example, the State the
child is in (the sending State) asks the State in which the child is to be placed (the receiving
State) to conduct a home study to evaluate the suitability of the potential placement. If a
placement is actually made, the receiving State supervises the placement and the sending State
maintains financial responsibility for the child. The Compact began in 1959 and all States, the
District of Columbia, and the U.S. Virgin Islands had joined by 1990.

This inspection is based on three data sets: responses to telephone interviews with compact
administrators from each State, State policies and procedures, and placement data collected
from the States.

FINDINGS

States Have Policies And Procedures That Are Generally Uniform And Comprehensive

The vast majority of States have centralized their Compact function. This means they have a

Compact office at the State level that handles all Compact cases coming into and going out of the

State. The two decentralized States handle all Compact cases at the county level.

States report using the same general procedures. Accordingly, placements usually follow the

same path: local office to State office in the sending State, then State office to local office in the

receiving State. Adoption and foster care placements generally follow the same path, but the


                                           )))))))))))
                                                i
process differs depending on who initiates the placement. It could be the court, an agency, a
parent or guardian. Although similar in many ways, States do have some notable differences.
These differences include the extent of contracting out compact administration and the number of
residential treatment centers in States.

States Are Sometimes Unaware That Children Are Placed in Their Jurisdiction

Many States believe that children have probably been placed in their State without their
knowledge. This can happen under two circumstances: 1) children placed through the Compact
but the receiving State does not know the placement has been finalized; and 2) placements that
ignore the Compact. States disagree about the implications of the first instance. Some States feel
that these children are vulnerable because the placement may not be supervised. Other States say
the local office knows about the placement, even if the State does not, and will supervise it. For
placements that ignore the compact, the situation may be more serious because it is likely that
neither the State nor its local office knows the child is there.

Half of the States Do Not Know How Many Children They Placed Through The Compact
in 1997

State placement information is incomplete, but it indicates that many thousands of children are
placed across State lines each year. Only 27 of the 52 Compact States were able to report the
number of adoption, foster care, and residential placements into and out of their State in 1997.
The total number of placements into these 27 States is 12,615. The total number of placements
out of these 27 States is 11,827. The other 25 States are unable to report the actual number of
adoption, foster care, and residential placements that occurred into or out of their States in 1997.
The two main reasons that the quality of State data is poor and inconsistent are differing standards
among States and ineffective tracking techniques.

CONCLUSION

Clearly the Interstate Compact on the Placement of Children has been successful in establishing
procedures for the interstate placement of children. Needless to say, States have obligations to
the children they place across State lines and it appears the compact system is a promising and
viable way to fulfill these obligations. Nonetheless, weaknesses in the overall structure are
apparent and some children may be vulnerable. We are continuing our work in this area and will
analyze in greater detail how well this system is being implemented.

We encourage States to abide by the principles of the Compact. The ACF should be prepared
where necessary to provide technical assistance on how to more effectively implement the
Compact, especially in regard to placement notification and uniform data collection.

We received comments from ACF and from the American Public Human Services Association
(APHSA). The ACF stated that the report presents information important to their agency, which
is responsible for the Federal programs for foster care and adoption assistance. The ACF also
expressed interest in information on the timeliness of interstate placements. This issue will be


                                         )))))))))))
                                              ii
addressed in a subsequent report. In addition, ACF made a number of technical comments that
we incorporated into the report when appropriate.

The APHSA comments included the comments of the Executive Committee of the Association of
Administrators of the Interstate Compact for the Placement of Children. They stated that the
report can serve as a foundation for a better understanding of what the Compact is today, how it
works, and how it can function more effectively in the future. The Association welcomes efforts
by ACF to work with the States and the Secretariat. The APHSA made a number of technical
comments that we included in the report when appropriate. The actual comments received are
included in Appendix B.




                                        )))))))))))
                                             iii
                              TABLE OF CONTENTS


                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 States Have Uniform Policies and Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 States are Sometimes Unaware that Children are Placed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


 Half the States Cannot Report Placement Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDIX


 A: 1997 Placement Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


 B: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                            INTRODUCTION

PURPOSE

The purpose of this inspection is to describe how States have implemented the Interstate
Compact on the Placement of Children and to report on the number of children who are
affected by the Compact.

BACKGROUND

The Administration for Children and Families (ACF) has asked the Inspector General (OIG) to
look at a number of issues regarding interstate compacts and what happens when children are
placed or moved across State lines. The OIG has completed an inspection, Interstate Compact
on Adoption and Medical Assistance (OEI-02-95-00040), that assessed how membership in the
Interstate Compact for Adoption and Medical Assistance affects States’ efforts to protect the
interests of adopted special needs children who move from one State to another. Currently,
the ACF is interested in how the Interstate Compact on the Placement of Children (the
Compact) is implemented by States, and the Compact’s strengths and weaknesses. This
inspection addresses how States have structured their Compact function. The Compact’s
strengths and weaknesses will be explored in a subsequent inspection.

Sometimes circumstances are such that the most suitable placement for a child is out of their
own State. These out of State placements are made for a variety of reasons. They include
adoptions across State lines, foster care placements out of State, and reunification with a parent
who has moved while the child is in State custody. No accurate national data exists on the
number or type of interstate placements that occur each year. However, during pre-inspection,
experts told us that the number of children placed across State lines is increasing.

The Interstate Compact on the Placement of Children

An interstate compact, such as the Interstate Compact on the Placement of Children, is a
contract among and between States. To participate in the Compact, a State must enact into law
the text of the Compact. It is intended to ensure that children placed across State lines for
adoption or for foster care receive adequate protection and support services. It establishes
procedures for placement and compels the placing agency to maintain responsibility for the
child.

The Compact grew out of work done in the late 1950's when a group of social service
administrators and State legislators informally looked at the problems of placing children out
of State for adoption or foster care. Although importation and exportation statutes regulate the
interstate movement of goods, Federal law did not provide protection for children moved
between States. The group found that a sending State, in the absence of a compact, could not
compel the receiving State to provide protection or support services for a child. In addition, a
receiving State, in the absence of a compact, could not compel a sending State to remain

                                         )))))))))))
                                              1
financially responsible for a child. In response to this group’s findings, the Compact was
drafted in the New York State Legislature and was adopted by New York in 1960. By 1990,
all States, the District of Columbia, and the U.S. Virgin Islands had joined.

The purpose of the Compact is for the party States to cooperate in the interstate placement of
children so that:
        C       the child is placed in a suitable environment;
        C       the receiving State has the opportunity to assess the proposed placement;
        C       the sending State obtains enough information to evaluate the placement; and
        C       the care of the child is promoted through appropriate jurisdictional
                arrangements.

The Compact outlines the many steps necessary to place a child out of State. For example, the
State the child is in (the sending State) asks the State in which the child is to be placed (the
receiving State) to conduct a home study to evaluate a possible placement. When a placement
is finally made, the receiving State must continue to supervise the placement.

The Compact has jurisdiction over the following types of interstate placements: placement
preliminary to an adoption; placement into foster care; placement with parents and relatives
when a parent or relative is not making the placement; and placement into a group home, child
care institutions, and residential treatment facilities. The Compact does not have jurisdiction
over the following placements: placements into schools, medical and mental facilities and
placements made by a child’s parent, stepparent, grandparent, adult sister or brother, adult
aunt or uncle, or non-agency guardian with any such relative or non-agency guardian.

For the purposes of this report, adoptions include those made by public agencies, private
agencies, attorneys, and birth parents. Foster care placements include placements into paid
foster homes, into homes of unpaid relatives, and into homes of formerly non-custodial
parents. Residential placements, a form of foster care, include placements into residential
treatment centers, group homes, and child care institutions.

The Compact is managed in each State by a compact administrator. In 1974, the compact
administrators formed the Association of Administrators of the Interstate Compact on the
Placement of Children (the Association) to provide technical and support services to its
members. The Association, under the terms of the Compact, can pass regulations. The
American Public Human Services Association (APHSA) acts as the Secretariat to the
Association of Administrators. The APHSA is a non-profit organization that represents a
variety of State interests in the field of health and human services. The Secretariat is funded
through dues paid by member States. ACF funded the Association until 1985.




                                        )))))))))))
                                             2
Federal Role in Interstate Placements

As the Federal agency with formal responsibility for supporting State Child Welfare activities,
ACF administers the Federal programs that fund State foster care and adoption initiatives.

The Federal funding of State foster care and adoption is authorized under the Social Security
Act. Title IV-E of the Act reimburses a portion of State expenditure for foster care
maintenance payments for eligible children and adoption assistance for eligible special needs
children. Federal reimbursement is also available for certain administrative and training costs
associated with both programs. Title IV-B, as amended by the Adoption and Safe Families
Act of 1997, provides funding for ‘adoption promotion and support services’ and ‘time-limited
reunification services,’ along with family preservation and support. In order to receive a grant
under Title IV-B, States are required to provide specific protections. These protections include
developing a case plan for each child in foster care and conducting a court or administrative
review of the status of each child at least every 6 months. In addition, a hearing must be held
within 12 months of the child’s entry into foster care by a court or court-approved
administrative body to determine the permanency plan of each child.

Adoption and Foster Care Analysis and Reporting System

Under a Federal mandate, States are required to collect and report case-specific data on all
children in foster care under the responsibility of the child welfare agencies and the children
adopted with the involvement of these agencies. This data collection system is known as the
Adoption and Foster Care Analysis and Reporting System (AFCARS). The first reporting
period began October 1,1994. According to ACF, State submission of data has been
inconsistent. Not all States are reporting data and some States are submitting data that is of
poor quality.

Statewide Automated Child Welfare Information Systems

In 1993, a federal grant was set up to fund the Statewide Automated Child Welfare Information
Systems program to update States’ child welfare information systems. The improved systems will
have database, reporting and inquiry capabilities, and will be able to track the progress of children
in both public and private child welfare service agencies. In the past five years, the majority of
States have implemented or are in the process of developing these systems.

The Adoption and Safe Families Act of 1997

The Adoption and Safe Families Act of 1997 prohibits States from delaying or denying
adoptive placements when an approved family is available in another jurisdiction. The Act
establishes safety, permanency, and well-being as the Federal goals for children in the child
welfare system. States are also required to develop plans for the effective use of cross­

                                          )))))))))))
                                               3
jurisdictional resources to facilitate timely adoptive or permanent placements for waiting
children. The Act furthers the Federal initiative to double the annual number of children
adopted from the foster care system by the year 2002. In addition, the Act requires the
General Accounting Office to study and report to Congress on how to improve procedures and
policies to facilitate timely adoptions across State and county lines.

METHODOLOGY

This inspection is based on three data sets: responses to telephone interviews with compact
administrators, placement data, and State policies and procedures.

State Interviews

We conducted telephone interviews with all 52 member States (50 States, the District of
Columbia, and the U.S. Virgin Islands). We spoke with each compact administrator or a
representative designated to speak on the administrator’s behalf. We asked each State about the
structure of the State’s Compact function, Compact staffing levels, and Compact procedures.
We also asked about satisfaction with these structures and procedures. Finally, we gathered
suggestions for improvement at both the State and national levels.

Some concerns about illegal placements and improper use of the Compact placement forms
were raised during the initial interviews with all the States. To learn more about these issues
and to collect missing placement numbers, we called back a purposive sample of 17 States.
We asked the 17 States questions about the use of the Compact’s notification form that reports
a child’s placement status and the possibility of placements made in violation of the Compact.

Placement Numbers

We sent a letter to each State requesting the number of adoption, foster care, and residential
Compact placements into and out of the State in calendar year 1997. We collected these
numbers during the telephone interviews and through several follow-up calls. When these
numbers were unavailable, we asked for estimates. Adoptions include placements through
public agencies, private agencies, and independent agents, such as attorneys. Foster care is
defined as placements in paid foster homes, with unpaid relatives, and with parents.
Residential placements include residential treatment centers, group homes, and child care
institutions.

Residential care is generally considered a form of foster care. We chose to collect data for
residential placements separately from other forms of foster care because our pre-inspection
research indicated that residential numbers would vary widely among States. We did not,
however, separate residential placements from foster care in our discussion of structure or
procedures with States.

                                        )))))))))))
                                             4
Policies and Procedures

We asked each State to provide us with any written policies and procedures they use in the
processing of interstate cases. Thirty-nine States sent written materials. We reviewed each
State’s written policies and procedures to determine their clarity, thoroughness, and degree of
detail. We also asked for any other tools used in Compact cases, such as information
checklists attached to placement requests. A number of States also sent us training material
used to train local case workers. We reviewed these materials for consistency with the text of
the Compact and the APWA’s 1990 “Guide to the Interstate Compact on the Placement of
Children.”

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                        )))))))))))
                                             5
                                     FINDINGS

States Have Policies And Procedures That Are Generally Uniform And Comprehensive

Most States have a centralized structure

The vast majority (50) of States have centralized their Compact function. They have a Compact
office at the State level that handles all Compact cases coming into and going out of the State.
This State office works with their own local offices and other States’ Compact offices. The
majority of the centralized States (35) are satisfied with the way their State’s Compact function is
structured.

Only two States have decentralized their Compact function. That is, the counties in these States
each have a liaison who acts in the same way compact administrators act in other States.
Placements go through the county level, not State level. The decentralized States are also
satisfied with their Compact structure. Several centralized States, however, complain that it is
difficult placing children in decentralized States because of the burden of finding the appropriate
people to contact.

States report following the same general procedures

Overall, States’ procedures appear to be consistent with the original Compact laws and with the
Guide to the Interstate Compact on the Placement of Children written by the Secretariat.
Usually placements follow the general path of sending local office º sending State office º
receiving State office º receiving local office. See the flow chart on the following page for a
detailed illustration of the placement process. The flow chart does not include the supervision of
the placement.

As the flow chart shows, the typical interstate foster care placement originates with the local case
worker in the sending State. The local worker in the sending State identifies a possible placement
in another State, fills out an ICPC-100A Interstate Compact Placement Request and sends it,
along with any other necessary information including medical and financial information, to the
sending State Compact office. The sending State Compact office reviews the packet received
from the local worker and makes sure it is complete. The compact administrator or representative
signs the completed request and mails it to the receiving State Compact office.

The receiving State Compact office reviews the request and forwards it to the local office where
the child will be placed. The local office in the receiving States conducts a home study,
recommends to approve or deny the placement, and forwards all the information to the receiving
State Compact office. The receiving State compact administrator or representative then makes
the decision to approve or deny the placement and sends all the information back to the sending
State Compact office. If the placement has been approved, the local worker in the sending States
will then decide whether or not to place the child.



                                           )))))))))))
                                                6
                Interstate Compact on the Placement of Children Process - Foster Care Placement



       Local sending worker finds
      possible out of State placement             Receiving State Compact
                                                     office notifies the                 Sending State Compact notifies
                                                   sending State Compact                      local sending office
 Local sending worker fills out 100A
  and sends it with a request packet
                                                                    Yes
 to the sending State Compact office
                                                                                          Local sending office reviews
                                                                                                 the home study
                                                  Is the placement approved
                                                                                    No
                                                     by the receiving State
Sending State Compact office reviews
                                                    compact administrator?
    the 100A and request packet
                                                                                                                              No
                                                                                              Does the local sending
                                                                                              worker decide to place
                                                                                                    the child?
                                  No
       Is the packet complete?
                                                  Local receiving office sends
                                                packet with completed home study
                                                                                                  Yes
                                                and recommendation to receiving
                                                       State Compact office
                       Yes                                                                        Child placed

Sending State compact administrator
 signs the 100A and sends it to the           Local Office recommends to approve
   receiving State Compact office                    or deny the placement.
                                                                                          Receiving State Compact office
                                                                                         notifies the sending State Compact
   Receiving State Compact office
    receives and reviews the100A                 Local receiving office reviews
    and placement request packet                packet and completes home study
                                                                                           Sending State Compact notifies
                                                                                                local sending office

Yes               Is               No
                                             Receiving State Compact office sends the
           more information                     packet to the receiving local office             Child is not placed
               needed?




                     Local Office in Sending State

                     State Compact Office in Sending State

                     State Compact Office in Receiving State

                      Local Office in Receiving State




                                                         )))))))))))
                                                              7
)))))))))))
     8

Adoption placements generally follow the same path as foster care placements, except that
adoptions originate from different sources. A public adoption, that is, a placement of a child
usually under State custody by a public agency, goes through the same channels as a foster care
placement. The process for private and independent adoptions differ from foster care placements
and public adoptions mainly at the local level. For example, in a private adoption the private
agency completes the 100A, prepares the packet requesting placement, and forwards it to the
sending State Compact office. For independent adoptions, either an attorney or the birth
mother/parents, depending on State law, acts as the sending agent and completes the 100A to
request out of State placement. (All but six States allow independent adoptions.) After a
placement has been approved, it is the private agency or birth parent/attorney who makes the final
decision whether or not to send the child.

One other significant difference was reported in the processing of private and independent
adoptions. States report that home studies are usually completed by private caseworkers prior to
the submission of the 100A. Therefore, one less step is followed in the Compact process. Rather
then forwarding a 100A to a caseworker for a home study, a receiving State Compact office will
usually make the decision to approve or deny the placement soon after receiving the request.

States have some notable differences

Six States contract out part of their Compact process and one State is considering this option to
speed processing time. Both decentralized States contract out the processing of private adoption
requests. That is, these agencies take on the responsibilities of the compact administrator.
Centralized States sometimes contract out services done at the local level. Four States contract
out foster care home studies. Two of them also contract out home studies for public adoptions
and one contracts for post-placement supervision. In some cases, only specific geographic areas
of the State contracts out services, usually in the region that contains the State’s largest urban
area.

Residential placements vary widely among States. Some States have no residential facilities so
those States must use residential facilities in other States. Therefore, all their residential
placements must go through the Compact. The States with facilities may receive very large
numbers of residential placements through the Compact. Three of these States report receiving in
excess of 700 children in 1997 into residential placements. This is several hundred more than
other States. See Appendix A for a complete listing of State reported data.

States’ written policies and procedures are generally uniform and comprehensive

States have developed written procedures and several tools to aid the Compact process.

Of the 39 written State policies and procedures that we reviewed, 34 are comprehensive

descriptions of implementation of the Compact and five cover most, but not all, steps in the

placement process. The descriptions are fairly uniform and present similar policies and

procedures in similar terms. Almost all States (48) are satisfied with their procedures. States do

note, however, that they could use more staff, more training, and better automation.




                                         )))))))))))
                                              9
Some States have developed tools to facilitate case processing. For instance, some States have
created sample transmittal, request, and response letters for interstate communication. Some use
checklists to make sure all the necessary information, such as the financial and medical plan and
social assessment of the child and family, is included in a placement request. States have also
developed forms and letters to be used when they must return an incomplete request to the
sending State. One State has made special arrangements with the police to handle criminal record
checks for potential caregivers in priority placement cases. Another State has developed a memo
for State child care institutions and judges that explains the legal requirements of the Compact.

States Are Sometimes Unaware That Children Are Placed in Their Jurisdiction

Many States believe that children have probably been placed in their State without their
knowledge. This can happen under two circumstances: 1) children placed through the Compact
but the receiving State does not know the placement has been finalized; and 2) placements that
ignore the Compact. In the first instance, the Compact may be followed correctly during the
placement but the receiving State is not formally notified by the sending State that the placement
has occurred. Under the Compact, the 100B form is used by the sending State to tell the
receiving State that a child has been placed. Although the States developed this form themselves
through the Association, the form is not consistently used. Of the seventeen States asked whether
they use the 100B Compact form as notification of placement, seven States say that they always
use the 100B, eight States report sometimes using it and two say they do not use it at all. Most of
the States say they do not receive 100B forms regularly.

States disagree about the implications of not receiving 100B forms. Some States feel that even
though the State Compact office may not be notified of a placement, the local office responsible
for supervising the placement is probably aware of the situation so the child is not at risk. There
is no way to verify this. Other States, however, feel that a child placed without the State’s
knowledge may not be supervised.

The situation may be more serious when a child is placed in violation of the Compact. This can
happen when a court, attorney, or member of the general public is unaware of the Compact’s
existence or knows about it but for some reason chooses to ignore it. In this instance, it is likely
that neither the State nor the local office is notified. This issue will be examined more thoroughly
in our next report.

Half of The States Do Not Know How Many Children They Placed Through The Compact
in 1997

Although State placement information is incomplete, it indicates that many thousands of children
are involved

Only 27 States were able to report the number of adoption, foster care, and residential placements
into and out of their State in 1997. Hence, we cannot report the aggregate number of children
who are placed through the Compact annually. The total number of placements into the 27 States
that submitted actual placement data is 12,615. This sum includes 2,468 adoption, 6,392 foster


                                          )))))))))))
                                               10
care, and 3,755 residential placements. The total number of placements out of the 27 States is
11,827. This sum includes 3,103 adoption, 7,036 foster care, and 1,688 residential placements.
As noted in the methodology section, foster care numbers include placements with paid foster
homes, unpaid relatives, and parents. Residential placements include residential treatment centers,
group homes, and child care institutions. An analysis of the 27 reporting States revealed no
common characteristics or defining patterns.

The placement numbers vary among States. The sending and receiving adoption and residential
placements range from none to several hundred. The sending and receiving foster care
placements each range from just a few in some small States to over 1,200 in larger States. State
population accounts for approximately 50 percent of the variance of placement numbers. Another
factor that may contribute to this variance is the sharing of a metropolitan area between States.

Data provided by the 27 States show that kinship (non-parent relative) is the most common type
of foster care placement, followed by parental and paid foster home. Private agencies place more
children into adoption through the Compact than public agencies. Independent adoptions are the
least common type of Compact adoption placements.

The other 25 States are unable to report the actual number of adoption, foster care, and
residential placements that occurred in and out of their States in 1997. These States include seven
that report estimates of placements; three that are missing some categories of placements; thirteen
that count referrals or approvals, not placements; and two States that could provide no numbers
at all. Referrals are requests made by a sending State that the receiving State conduct a home
study to evaluate a possible placement. Six States could provide us with actual referrals or
estimates of referrals. Approvals are approved requests for placement. Seven States could
provide us with actual approvals or estimates of approvals. Some of the States that submitted
actual placement data voluntarily submitted referral or approval data as well. Analysis of these
data reveals no relationship between referrals and approvals or between approvals and
placements.

Different standards and ineffective tracking techniques are the main reasons the quality of State
data is poor and not uniform. As noted above, States use different standards, such as referrals or
approvals in their counting. A few of the States that count referrals say referrals are a more
accurate reflection of their workload because procedures, such as home studies, need to be
completed whether or not the child is eventually placed. Other States say they count approvals
because they know how many approvals they have but they do not know the number of
placements that have resulted from the approvals.

States most often cite difficulty with their tracking systems as the reason for not having good
data. Many States mention that they have to manually search through each file to tally placement
statistics. Other States are automated to some extent, but report difficulty with their computer
programs. For example, a number of States say that their statewide computer system tracks only
children who are in the child welfare system. Since Compact cases include private placements,
some Compact offices do not use their statewide tracking system.



                                         )))))))))))
                                              11
The fact that several States require more than a month to collect the information is evidence of
the problems States face. Even seven of the States that could provide actual placement data say
they had difficulty obtaining their numbers.

The data is also unavailable at the national level. Even though information about children placed
out of State is suppose to be reported by each State for the AFCARS system, according to ACF
only 23 States submitted quality data in 1997. In addition, the AFCARS data element to track
out of State placement applies only to children in foster care which accounts for only about half of
children placed through the Compact.

The use of computer systems to track cases is limited

Twelve States report tracking Compact cases entirely by computer, while another twelve report
having no automation in their tracking system. The remaining States all use a combination of
computer and manual tracking systems. Several States say they are developing computer systems
or improving their current systems. Although the federal government has funded the States to set
up their own SACWIS computer systems to track children in the child welfare system, it appears
that these systems may not have helped States to track children placed through the Compact. Of
the 50 States with some county or regional government, 17 report that the counties are currently
using computers to track Compact cases and three report that they are currently developing
county computer tracking systems.




                                         )))))))))))
                                              12
                                CONCLUSION

Clearly the Interstate Compact on the Placement of Children has been successful in establishing
procedures for the interstate placement of children. Needless to say, States have obligations to
the children they place across State lines and it appears the compact system is a promising and
viable way to fulfill these obligations. Nonetheless, weaknesses in the implementation are
apparent and some children may be vulnerable.

We encourage States to abide by the principles of the Compact. The ACF should be prepared
where necessary to provide technical assistance on how to more effectively implement the
Compact, especially in regard to placement notification and uniform data collection. One
opportunity is to explore the use of Statewide Automated Child Welfare Information Systems.

We are continuing our work in this area and will analyze in greater detail how well this system is
being implemented.

COMMENTS

We received comments from ACF and from the American Public Human Services Association
(APHSA). The ACF stated that the report presents information important to their agency, which
is responsible for the Federal programs for foster care and adoption assistance. The ACF also
expressed interest in information on the timeliness of interstate placements. This issue will be
addressed in a subsequent report. In addition, ACF made a number of technical comments that
we incorporated into the report when appropriate.

The APHSA comments included the comments of the Executive Committee of the Association of
Administrators of the Interstate Compact for the Placement of Children. They stated that the
report can serve as a foundation for a better understanding of what the Compact is today, how it
works, and how it can function more effectively in the future. The Association welcomes efforts
by ACF to work with the States and the Secretariat. The APHSA made a number of technical
comments that we included in the report when appropriate. The actual comments received are
included in Appendix B.          .




                                         )))))))))))
                                              13
                          APPENDIX A: 1997 Placement Data



                                               Sending                             Receiving
State                   Population Adoption    Foster Care Residential Adoption Foster Care Residential
Alabama
                4,319,154    42 (e)      228 (e)      24 (e)     72 (e)     262 (e)     36 (e)
Alaska
                  609,311      32          111           23        24         80           1
Arizona
                4,554,966     297        1,028         107        89         970        718
Arkansas
               2,522,819     44 R       301 R        143 R       74 R      481 R       56 R
California
             32,268,301   214 (e)        -         1,068      101 (e)       -          3
Colorado
               3,892,644     86          230          113        71         144        258
Connecticut
            3,269,858     21          160           62        107        127         17
Delaware
                731,581      10         81 (e)       298 (e)     26        100 (e)     25 (e)
District of Columbia
    528,964      140         252          140        25         74           0
Florida
                14,653,945    473        1,664          62        210       1,235        43
Georgia
                7,486,242    160 A       350 A          0        361 A      487 A       35 A
Hawaii
                 1,186,602     71          144           76        76         128          0
Idaho
                  1,210,232     28          44           107        87         118         66
Illinois
               11,895,849      -           -            -          -          -          -
Indiana
                5,864,108    56 (e)      228 (e)      84 (e)     32 (e)     336 (e)     36 (e)
Iowa
                   2,852,423     81          123           52        31         99         134
Kansas
                 2,594,840     104         122           23        56         115          7
Kentucky
               3,908,124     83         182 (e)      20 (e)      82        121 (e)     1 (e)
Louisiana
              4,351,769    152 A       223 A       179 A (e)    47 A      294 A      45 A (e)
Maine
                  1,242,051     50          13            33        24          4           2
Maryland
               5,094,289     254         667          101        257        929         57
Massachusetts
          6,117,520     80 A       149 A          0        251 A      109 A       189 A
Michigan
               9,773,892    300 (e)     718 (e)      180 (e)    500 (e)   1,223 (e)     (e)
Minnesota
              4,685,549       -          4            61          -        20          15
Mississippi
            2,730,501     58          184          139        81         269          0
Missouri
               5,402,058     61          93            17        73         72         132
Montana
                 878,810       0          93 A         57 A        0         76 A       25 A



                                               )))))))))))
                                                   A-1
                                                     Sending                                   Receiving
State                  Population Adoption          Foster Care Residential Adoption Foster Care Residential
Nebraska
               1,656,870      61 (e)          275               147        135 (e)      155        136
Nevada
                 1,676,809      258 (e)        189 (e)              -        173 (e)     229 (e)       -
New Hampshire
          1,172,709       39 R          112 R              58 R        75 R       172 R        7R
New Jersey
             8,052,849      151 R          634 R              76 R       527 R       513 R        6R
New Mexico
             1,729,751        61            63                 25          51         122         15
New York
              18,137,226      323 R         1,063 R             126 R      566 R       851 R       11 R
North Carolina
         7,425,183         -              -                 -           -           -          -
North Dakota
            640,883         12            248                70          25         152         18
Ohio
                  11,186,331      149 (e)        42 (e)             60 (e)     128 (e)     51 (e)      89 (e)
Oklahoma
               3,317,091        91            165                37         132         259         38
Oregon
                 3,243,487       627            624                41         158         281          9
Pennsylvania
          12,019,661       233            408               242         357         478        708
Rhode Island
            987,429         36            84                 19          25          86          3
South Carolina
         3,760,181        38            137                16          78         204         20
South Dakota
            737,973         14            41                 20          51          78        325
Tennessee
              5,368,198        56            225                35         111         293        264
Texas
                 19,439,337      749 A          447 A              119 A      257 A       714 A       284 A
U.S. Virgin Islands
     114,000         0              1                  3          1           12          0
Utah
                   2,059,148       113            48                 79         202          64        677
Vermont
                 588,978         15            49                 35          74          50         95
Virginia
               6,733,996       69 R          384 R               4R        197 R       476 R       288 R
Washington
             5,610,362    229 R (e)      699 R (e)           96 R (e)   299 R (e)   757 R (e)   27 R (e)
West Virginia
          1,815,787       47 A           63 A              212 A       30 A        56 A         0
Wisconsin
              5,169,677       48 A          296 A              25 A       107 A       269 A       215 A
Wyoming
                 479,743         25            44                  6          33         100        134
Note: The numbers above are actual placements unless otherwise noted.


 (e) = number is an estimate

 R = number of requests (or referrals) for placement

 A = number of approved requests

 - = data is unavailable




                                                  )))))))))))
                                                       A-2
APPENDIX B


  COMMENTS




  )))))))))))
      B - 1

)))))))))))
    B - 2

)))))))))))
    B - 3

)))))))))))
    B - 4

)))))))))))
    B - 5

)))))))))))
    B - 6

)))))))))))
    B - 7

)))))))))))
    B - 8

)))))))))))
    B - 9

)))))))))))
   B - 10

